                                                                           LOS ANGELES GIG                                 PAGE    1l2/1l4
                                                                                                                                  p.2




    (
                                         NATIONAL RAlLROAD PASSl!:NGER
                                                                           CORPORATlON
                                               Ol~l'ICE OF lNS l'EC TO R
                                                                         GENERAL
                                                 OFFICE OF INVESTIGATIONS
                                                  lNVESTlGA'nV£ CLOSlNG ltEl'OJ1T
                                                                                  .

                   TIT LE,                          Thett
                   DAl'E OF REPORT;                                                     CASE NUMllER: 07-049
                                                    ~                             ~
                   REPORT PREPARRO RY!~K'
                                          lIl1                                d_                      SA
                   t. FINDINGS OF Me T ANI) RE CO MM EN DA
                  A. \?INnINGS OF FACT
                                                                           TIO NS                          J£~§f,E~~
                                                                                                           .        ~
              . 1.
                           The Or<lce of Inspector General '··lJ 1l,.·
                                                                       ,.
                           information allegi~g th.t
                           slealing scrop materia l
                                    allegedly                                 Yard
                          ~y, possibly
                                                                         grc" mon  t wJU~ n rcpl~~0ntotivo fTom another
                                                                           IOV l,lv; '", Ihe SCJ1lP material.
                          _         stated that                                                               Allegedly,
                                                                                 W<!S tlta tcpllOSentnt(vc. It
                          Blip-sed tbnt nlllr,ngc                                                              was also
                          take allY con·cctive action.                      rellloval of the SC1'3P material and did not

              2.         _        admitted to 01 Il,at he had removed Vari
                         soid the items to a scrap yard. _                   olls scrapll\atcrials from _ a n
                                                                                                                   d
                                                                      told...Q!....!!lUe hod ponn)..ion I~tters
                         _         to rcm<\ve some scrap malerilll from _                                        /lom
                                                                                        but thut he bud also rem
                         aoo~,!!!,j scrap material.
                                                                subsequently provid«1 OJ with (wo l.tte oved
                                     whioh sho wro(o th.t                                                     rs from
                                                                    had permiSsion to remove
                                      (Iud a \l'lrd lette,· in which _
                                                                                  wrote that
                                          had permission to remove ~" itom. (See Exh
                                                                                         ibit .
             3.                                         'wa s working as a . . .epr-
                                             Initially dell led to 01 thai she had auy ,sclltotive In ou o(fic~ ~t •
                              oml~lolleCS
                                                                                         arrangemont with _           or
                                            inv()lvina tho remova l of sernp materials.
                         second                                                             When questioned by 01 n
                                                   eO'ltinllcd to d~)ly giving Ilcmlissioll
                      items fi;om                                                           to           to removo auy
                                                   Only aftel' or confronted her wIth coplcs of
                      Exhibit I, did                                                              the threo leUers from
                                                     conlirm Illnt she had IlII lI'nlngomcnt wld
                      scrap material.                                                             l           to remove

         4.          01 nQllficd managelllent of tile ~dO\issi
                     Involvement with the femoval of various
                                                               o"s _             had n~l delaJUllg his
                                                             sell'!> lll8terials (rom _         aud tho sale of
                     the materials for pelsonnl gain. Amlmk
                                                            issued adIllJnlsU"tu!ve ohnr8es agaiust
                     December 20, 2007.                                                                     on .
        5.           _            \vas tenuinntoo by Amtrak 011 Feb,uar
                                           ,                           y 29, 200K.
        6.           or inle!viewed employees wOlrklt'g
(                    he had removed tho materials.                                    the IUne period          indicated
                     after observing tum loading                               10\(1 01 that I\e had questioned
                                                                  materi •• l, and thut                        .111111
                                                                                                  bad shown him a IcHor
        Clos~'!l neporl 07·049.docL
                                                         (lase 1 of3
        08/ 21/ 200 8 07: 53 2130913567                                    LOS ANGELES 016                               PAGE   03/0 4
          11Ug lb UU Ull~U,
                                                                                                                            1'.3



    (                     from _ . The _ t o l d
                          manageUI"ll! becauso he assumed
                          ~tc thnt lUalla80ment
                          _ , observed
                                                        bad given
                                                                    01 that ho did not lXport        _5  actloos 10
                                                                       's actions wera allthori~ed. or cOI~d nnt
                                                                            peonl5sioll to take sem
                                                       removing MY scrap materials, 01' that man p materials frOl1\
                          any proceeds ftom the ,,\e oflh a materia                               agement collected ,
                                                                   ls.
                  7.      or reviewed Amll:ak'a Locomotive servIce
                          netlons violated the general pfOvi~iolls ofll Contract wi th . ann found _ · s


                                                                    _s
                                                                       le contmet (See Exllibi! 2).
                  8.



                 9,
                         ~
                          ~Ol i~~ued

                          3).
                                     1I11 AdJnltlislTa~11
                                               detrullng

                         On April 10, 2008, 01 received a resp
                         wemor,mduln to OE demanding the imm
                                                                   s Iwl
                                                                                      to
                                                                                     ncao,os

                                                              onse from _In dic alu ig tbat ho J,""
                                                                                                      sent a
                                                                                                                 -
                                                                                                               Exhibit


                                                               ediate removal of _        from hor po~ilion
                         working Witll Alulrak, mid thot     Ino longer have access to Amtr81, propel1y


                                                                   _s
                         Exllihit. ").                                                                  (See
                 10.     On August 8, 2008, 01 received       second rospon,e from _
                                                             II.
                                                                                               indicating tim! _
                         intemallov.sugaUen oenelllded that
                                                                           uclion~ would \Jot [<:<ld to her dism
                        Howavel', Amtrak would have tlte tlnui                                                  issal.
                        with AIII(tak, _                           de.lsioll regaJxling h~t continued i.nvolve1
                                                Indicated in his response that he had                            l\ent
                        Amtrak's position that _                                          notified • thot It wa,
                                                            contlnlle to havo no authorize(l access
                        property (Sec Exhibit 5).                                                         to Amtrnl<
(
               ,!!. llliCOMMENOATioNS

                 1. Allegation
                                                                   )'""" "'1; further infonnntion,
               Chief luspecfol'.,

              Oeputy Inspectol' GeUCI'IIJ1COUDsel: _
                                                     _      _  ~__ _nnto:




(
            'Closing Report 01·049.dooL
                                                      Pogo? 00
